<html>
<title> - PRIVACY IN THE HANDS OF THE GOVERNMENT: THE PRIVACY OFFICER FOR THE DEPARTMENT OF HOMELAND SECURITY AND THE PRIVACY OFFICER FOR THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  PRIVACY IN THE HANDS OF THE GOVERNMENT: THE PRIVACY OFFICER FOR THE 
    DEPARTMENT OF HOMELAND SECURITY AND THE PRIVACY OFFICER FOR THE 
                         DEPARTMENT OF JUSTICE

=======================================================================


                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2006

                               __________

                           Serial No. 109-155

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov





                    U.S. GOVERNMENT PRINTING OFFICE

27-606 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                      CHRIS CANNON, Utah Chairman

HOWARD COBLE, North Carolina         MELVIN L. WATT, North Carolina
TRENT FRANKS, Arizona                WILLIAM D. DELAHUNT, Massachusetts
STEVE CHABOT, Ohio                   CHRIS VAN HOLLEN, Maryland
MARK GREEN, Wisconsin                JERROLD NADLER, New York
J. RANDY FORBES, Virginia            DEBBIE WASSERMAN SCHULTZ, Florida
LOUIE GOHMERT, Texas

                  Raymond V. Smietanka, Chief Counsel

                        Susan A. Jensen, Counsel

                        Brenda Hankins, Counsel

                   Mike Lenn, Full Committee Counsel

                   Stephanie Moore, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 17, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Chairman, Subcommittee on Commercial and 
  Administrative Law.............................................     1
The Honorable Melvin L. Watt, a Representative in Congress from 
  the State of North Carolina, and Ranking Member, Subcommittee 
  on Commercial and Administrative Law...........................     6

                               WITNESSES

Ms. Maureen Cooney, Acting Chief Privacy Officer, U.S. Department 
  of Homeland Security, Washington, DC
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Ms. Jane C. Horvath, Chief Privacy and Civil Liberties Officer, 
  U.S. Department of Justice, Washington, DC
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Ms. Sally Katzen, Professor, George Mason University Law School, 
  Arlington, VA
  Oral Testimony.................................................    25
  Prepared Statement.............................................    26
Ms. Linda D. Koontz, Director, Information Management Issues, 
  U.S. Government Accountability Office, Washington, DC
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Chris Cannon, a 
  Representative in Congress from the State of Utah, and 
  Chairman, Subcommittee on Commercial and Administrative Law....     2
Prepared Statement of the Honorable Melvin L. Watt, a 
  Representative in Congress from the State of North Carolina, 
  and Ranking Member, Subcommittee on Commercial and 
  Administrative Law.............................................     4

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from Maureen Cooney, Acting 
  Chief Privacy Officer, U.S. Department of Homeland Security, 
  Washington, DC.................................................    64
Response to Post-Hearing Questions from Sally Katzen, Professor, 
  George Mason University Law School, Arlington, VA..............    68
Response to Post-Hearing Questions from Linda D. Koontz, 
  Director, Information Management Issues, U.S. Government 
  Accountability Office, Washington, DC..........................    70


  PRIVACY IN THE HANDS OF THE GOVERNMENT: THE PRIVACY OFFICER FOR THE 
    DEPARTMENT OF HOMELAND SECURITY AND THE PRIVACY OFFICER FOR THE 
                         DEPARTMENT OF JUSTICE

                              ----------                              


                        WEDNESDAY, MAY 17, 2006

                  House of Representatives,
                         Subcommittee on Commercial
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:06 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Chris 
Cannon (Chairman of the Subcommittee) presiding.
    Mr. Cannon. The Subcommittee will please come to order.
    At the outset I want to note that immediately following the 
hearing, we have scheduled the markup of H.R. 2840, the 
``Federal Agency Protection of Privacy Act.''
    Let me begin this hearing with an observation written in 
1787 by Alexander Hamilton, one of our Founding Fathers, and 
one of the more interesting of them. He wrote: ``Safety from 
external danger is the most powerful director of national 
conduct. Even the ardent love of liberty will, after a time, 
give way to its dictates. The violent destruction of life and 
property incident to war, the continual effort and alarm 
attendant on a state of continual danger, will compel nations 
the most attached to liberty to resort for repose and security 
to institutions which have a tendency to destroy their civil 
and political rights. To be more safe, they at length become 
willing to run the risk of being less free.''
    Mr. Hamilton's comments are as insightful today as they 
were when he wrote them more than two centuries ago.
    In this post-9/11 world, it is no easy task to balance the 
competing goals of keeping our Nation secure while at the same 
time protecting the privacy rights of our Nation's citizens.
    As many of you know, the protection of personal information 
in the hands of the Federal Government has long been a top 
priority for my Subcommittee, the Subcommittee on Commercial 
and Administrative Law. Under the leadership of House Judiciary 
Committee Chairman Sensenbrenner, our Subcommittee has played a 
major role in protecting personal privacy and civil liberties.
    Our accomplishments to date include the establishment of 
the first statutorily created privacy office in a Federal 
agency, namely, the Department of Homeland Security. That 
office has since earned plaudits from both the private and 
public sectors, including the GAO.
    Just this week, the DHS Privacy Office submitted to 
Congress a comprehensive assessment of the impact of automatic 
selectee and so-called no-fly lists for airline passengers on 
privacy and civil liberties. While these lists can be useful 
tools for preventing terrorist activity endangering the safety 
of airline passengers and others, the collection of personal 
information to create these tools could raise concerns about 
their impact on privacy and civil liberties. I think we will be 
interested to hear Ms. Cooney's summary of this report as part 
of today's hearing.
    Inspired by the successes of the DHS Privacy Office, our 
Subcommittee also spearheaded the creation of a similar 
function in the Justice Department, which was signed into law 
in January of this year. Ms. Horvath, another of our witnesses, 
was appointed to fill this important position on February 21. 
We also look forward to hearing from Ms. Horvath about her 
views and goals as the Chief Privacy and Civil Liberties 
Officer for the Justice Department.
    To supplement these efforts, our Subcommittee has also 
conducted oversight hearings on the subject of the Government's 
use of personal information. These include a hearing held on 
the 9/11 Commission's privacy-related recommendations as well 
as a hearing held just last month on the respective roles that 
the Federal Government and information resellers have with 
respect to personal information collected in commercial 
databases.
    As technological devices increasingly facilitate the 
collection, use, and dissemination of personally identifiable 
information, the potential for misuse of such information 
escalates. Five years ago, the GAO warned: ``Our Nation has an 
increasing ability to accumulate, store, retrieve, cross-
reference, analyze, and link vast numbers of electronic records 
in an ever faster and more cost-efficient manner. These 
advances bring substantial Federal information benefits as well 
as increasing responsibilities and concerns.''
    Unfortunately, the GAO continues to find, as we learned 
from our hearing last month, that Federal agencies' compliance 
with the Privacy Act and other requirements is, to quote, 
``uneven.''
    It is against this complex but exceedingly interesting 
backdrop that we are holding this hearing today.
    I now turn to my colleague, Mr. Watt, the Ranking Member of 
the Subcommittee, and ask him if he has any opening remarks. 
But before I recognize him, I just want to say that we 
appreciate working with Mr. Watt on these issues. He has been 
a--this Committee has worked well together, and he has been a 
great support and addition. And with that, Mr. Watt, I 
recognize you for an opening statement for 5 minutes.
    [The prepared statement of Mr. Cannon follows:]
 Prepared Statement of the Honorable Chris Cannon, a Representative in 
    Congress from the State of Utah, and Chairman, Subcommittee on 
                   Commercial and Administrative Law
    Let me begin this hearing with an observation written in 1787 by 
Alexander Hamilton, one of our Founding Fathers. He wrote:

        ``Safety from external danger is the most powerful director of 
        national conduct. Even the ardent love of liberty will, after a 
        time, give way to its dictates. The violent destruction of life 
        and property incident to war, the continual effort and alarm 
        attendant on a state of continual danger, will compel nations 
        the most attached to liberty to resort for repose and security 
        to institutions which have a tendency to destroy their civil 
        and political rights. To be more safe, they at length become 
        willing to run the risk of being less free.''

    Mr. Hamilton's comments are as insightful today as they were when 
he wrote them more than two centuries ago.
    In this post-September 11th world, it is no easy task to balance 
the competing goals of keeping our nation secure while at the same time 
protecting the privacy rights of our nation's citizens.
    As many of you know, the protection of personal information in the 
hands of the federal government has long been a top priority for my 
Subcommittee--the Subcommittee on Commercial and Administrative Law. 
Under the leadership of House Judiciary Committee Chairman 
Sensenbrenner, our Subcommittee has played a major role in protecting 
personal privacy and civil liberties.
    Our accomplishments to date include the establishment of the first 
statutorily-created privacy office in a federal agency, namely the 
Department of Homeland Security. That office has since earned plaudits 
from both the private and public sectors, including the GAO.
    Just this week, the DHS Privacy Office submitted to Congress a 
comprehensive assessment of the impact of automatic selectee and so-
called ``no-fly'' lists for airline passengers on privacy and civil 
liberties. While these lists can be useful tools for preventing 
terrorist activity endangering the safety of airline passengers and 
others, the collection of personal information to create these tools 
could raise concerns about their impact on privacy and civil liberties. 
I think we will be very interested to hear Ms. Cooney's summary of this 
report as part of today's hearing.
    Inspired by the successes of the DHS Privacy Office, our 
Subcommittee also spearheaded the creation of a similar function in the 
Justice Department, which was signed into law in January of this year. 
Ms. Horvath, another of our witnesses, was appointed to fill this 
important position on February 21st. We also look forward to hearing 
from Ms. Horvath about her views and goals as the Chief Privacy and 
Civil Liberties Officer for the Justice Department.
    To supplement these efforts, our Subcommittee has also conducted 
oversight hearings on the subject of the government's use of personal 
information. These include a hearing held on the 9/11 Commission's 
privacy-related recommendations as well as a hearing held just last 
month on the respective roles that the federal government and 
information resellers have with respect to personal information 
collected in commercial databases.
    As technological developments increasingly facilitate the 
collection, use, and dissemination of personally identifiable 
information, the potential for misuse of such information escalates. 
Five years ago, the GAO warned:

        ``Our nation has an increasing ability to accumulate, store, 
        retrieve, cross-reference, analyze, and link vast numbers of 
        electronic records in an ever faster and more cost-efficient 
        manner. These advances bring substantial federal information 
        benefits as well as increasing responsibilities and concerns.''

    Unfortunately, the GAO continues to find--as we learned from our 
hearing last month--that federal agencies' compliance with the Privacy 
Act and other requirements is ``uneven.''
    It is against this complex, but exceedingly interesting backdrop 
that we are holding this hearing today.

    Mr. Watt. Thank you, Mr. Chairman, and I am going to ask 
that my civil written statement be put in the record.
    Mr. Cannon. Without objection, so ordered.
    [The prepared statement of Mr. Watt follows:]
Prepared Statement of the Honorable Melvin L. Watt, a Representative in 
    Congress from the State of North Carolina, and Ranking Member, 
           Subcommittee on Commercial and Administrative Law
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Watt. Thank you, sir, and then I'm going to stray to 
make some less civil remarks, so you might have bragged too 
early because I'm feeling a sense of frustration here.
    I'm reflecting back to a point several terms ago when 
eyebrows were raised by the fact that Representative Bob Barr, 
one of the, quote-unquote, more conservative Members of this 
Committee, and Representative Mel Watt, quote-unquote, one of 
the more liberal Members of this Committee, met out here in 
front of the Capitol and had a press conference about a bill 
that is this bill.
    Well, we marked it up, and Mr. Barr is now gone on into the 
private sector. The year after he left, we marked it up again. 
And, you know, at some point we're going to have to do 
something on this issue more than mark up this bill in the 
Subcommittee if we are going to begin to be serious about doing 
what we need to do, it seems to me.
    And so it is from that that I am feeling this great sense 
of frustration that I am beginning to get the feeling that any 
time some of my colleagues want to feel like they want to say 
publicly that they are doing oversight over our Government or 
interested in protecting privacy rights, the way to do that is 
to put this bill back on for another hearing and another 
markup, and then next term of Congress we'll be back doing the 
same thing over and over again as we now have been doing--
what?--two or three, maybe--I don't know how many terms of 
Congress we've marked this bill up and had hearings on it.
    So if I'm feeling a little frustrated, it's not because I 
don't think this is something important. It is more important 
today than it was when we started three or four terms of 
Congress ago.
    Yeah, we thought the Government was doing some things to 
invade the privacy rights of individuals, but we certainly--our 
Government wasn't getting a list of everybody's phone numbers 
and monitoring phone calls within the United States. So this 
has gone to a level that is so far beyond what we anticipated 
or thought about or thought we were addressing at the time we 
originally introduced this bill. And yet here we are having 
another hearing, marking up the bill in our Subcommittee, and 
so I guess maybe I should make a commitment not to be back here 
next term of Congress doing the same thing that we've done now 
several times. Unless we are going to be serious about pushing 
this legislation and getting it considered in the full 
Committee in the House, in the Senate, this may be just another 
show that some of our Members think is time to make another 
public demonstration that we are concerned about the privacy 
rights of our citizens and the possibility that the 
Government--the probability--the reality that the Government is 
way over there beyond where they ought to be on invading those 
privacy rights.
    So I will--I've put my civilized statement in the record, 
Mr. Chairman. I've made my uncivilized statement. But believe 
me, I'm just frustrated about where we are on this issue 
because we've had hearing after hearing, we've had markup after 
markup, but we still don't have any real results to show for 
it.
    So, with that, I yield back.
    Mr. Cannon. The record of this hearing should reflect the 
Chairman's view that even when Mr. Watt intends to be uncivil, 
he is an awfully civil human being.
    I hope that the gentleman is not suggesting that there is 
any lack of commitment on my part to this bill, and I point out 
that actually we've changed the rules recently that allows us 
now on this side of the Hill to criticize the other side of the 
Hill for its lack of action. We've actually passed this bill on 
the House side from the whole--the House of Representatives has 
passed it out. It has not been acted on by the Senate. The 
Senate is a complicated body, and we hope that by passing this 
again, and maybe again and again--we actually passed the 
Bankruptcy Act eight times before they passed it on the other 
side. So I agree with the gentleman and his concerns and wish 
that this issue were actually behind us. And hopefully we'll 
take that step today to do that.
    I just might also point out that there's a difference 
between monitoring phone calls and comparing numbers that 
people are calling to connect those phone calls to our enemies 
outside the country, without arguing for the rightness of any 
of that, just to make the distinction on the record here.
    Without objection, all Members may place their statements 
in the record at this point. Hearing no objection, so ordered.
    Without objection, the Chair will be authorized to declare 
recesses of the hearing at any point. Hearing no objection, so 
ordered.
    I ask unanimous consent that the Members have 5 legislative 
days to submit written statements for inclusion in today's 
record. Hearing no objection, so ordered.
    I'm now pleased to introduce the witnesses for today's 
hearing, three of whom have previously testified before our 
Subcommittee. We welcome you back and appreciate your continued 
assistance to our Subcommittee.
    Our first witness is Maureen Cooney, the Acting Chief 
Privacy Officer for the Department of Homeland Security. As I 
previously noted, the Subcommittee played a major role in 
establishing Ms. Cooney's office at DHS. The legislation 
creating her office not only mandated the appointment of a 
Privacy Officer, but specified the officer's responsibilities.
    One of the principal responsibilities of the DHS Privacy 
Officer as set out by statute is the duty to assure that ``the 
use of technologies sustain, and do not erode, privacy 
protections relating to the use, collection, and disclosure of 
personal information.'' In addition, the Privacy Officer must 
assure that personal information is handled in full compliance 
with the Privacy Act and assess the privacy impact of the 
Department's proposed rules.
    Before joining DHS' Privacy Office, Ms. Cooney worked on 
international privacy and security issues at the U.S. Federal 
Trade Commission where she served as a principal liaison to the 
European Commission for privacy issues, a very difficult and 
burdensome task, I'm sure, especially eating in French 
restaurants on occasion. I hope you had that opportunity. You 
don't need to--no incriminating statement is due on that.
    She also played a major role in the revision of the 
guidelines for information systems and networks for the 
Organization of Economic Cooperation and Development. Prior to 
that assignment, Ms. Cooney worked on privacy and security 
issues with the Treasury Department and at the Office of the 
Comptroller of the Currency. Ms. Cooney received her bachelor's 
degree in American Studies from Georgetown University and her 
law degree from Georgetown University Law Center.
    Our next witness is Jane Horvath, the recently appointed 
Chief Privacy Officer and Civil Liberties Officer for the 
Department of Justice. In this capacity, Ms. Horvath is 
responsible for reviewing the Justice Department's compliance 
with the privacy laws and with developing the Department's 
privacy policies. In addition to safeguarding privacy, Ms. 
Horvath oversees the Department's policies relating to the 
protection of individual civil liberties, specifically in the 
context of DOJ's counterterrorism and law enforcement efforts. 
These are really awesome responsibilities. Before joining the 
Justice Department, Ms. Horvath was the Director of the 
Washington, D.C., Office of Privacy Laws and Business, a 
privacy consulting firm. While there, she focused on advising 
U.S. companies on international privacy trends among other 
matters. Ms. Horvath received her undergraduate degree from the 
College of William and Mary and her law degree from the 
University of Virginia.
    Professor Sally Katzen is our next witness. Ms. Katzen is a 
visiting professor at George Mason University Law School as 
well as the Sachs Scholar at Johns Hopkins University. Next 
year, she will be a Public Interest, Public Service Faculty 
Fellow at the University of Michigan Law School. Prior to 
joining academia in 2001, Professor Katzen was responsible for 
developing privacy policy for the Clinton administration for 
nearly a decade. As the Administrator of the Office of 
Information and Regulatory Affairs at the Office of Management 
and Budget, she was effectively the chief information office--
policy official for the Federal Government. Her 
responsibilities included developing Federal privacy policies. 
Professor Katzen later served as the Deputy Assistant to the 
President for Economic Policy and Deputy Director of the 
National Economic Council in the White House. Thereafter, she 
became the Deputy Director for Management at OMB. Before 
embarking on her public service career, Professor Katzen was a 
partner in the Washington, DC, law firm of Wilmer, Cutler and 
Pickering, where she specialized in regulatory and legislative 
matters. Professor Katzen graduated magna cum laude from Smith 
College and magna cum laude from the University of Michigan Law 
School, where she was editor in chief of the Law Review. 
Following her graduation from law school, she clerked for Judge 
J. Skelly Wright of the United States Court of Appeals for the 
District of Columbia Circuit.
    Our final witness is Linda Koontz, who is the Director of 
GAO's Information Management Issues Division. In that capacity, 
she is responsible for issues regarding the collection and use 
and dissemination of Government information. Ms. Koontz has led 
GAO's investigations into the Government's data-mining 
activities as well as e-Government initiatives. In addition to 
obtaining her bachelor's degree from Michigan State University, 
Ms. Koontz received certification as a Government financial 
manager.
    I extend to each of you my warm regards and appreciation 
for your willingness to participate in today's hearing. In 
light of the fact that your written statements will be included 
in the hearing record, I request that you limit your oral 
remarks to 5 minutes. Accordingly, please feel free to 
summarize highlights of your--or highlight the salient points 
of your testimony. You will note that we have a lighting system 
that starts with a green light. After 4 minutes, it turns to a 
yellow light, and then at 5 minutes, it turns to a red light. 
It is my habit to tap the gavel at 5 minutes. We'd appreciate 
it if you'd finish up your thoughts within that time frame. We 
don't like to cut people off in their thinking, but I find that 
it works much better if everybody knows that 5 minutes is 5 
minutes. So if you could wrap it up by that time, the time we 
get there, I would appreciate that, and I will try to be 
consistent in my tapping, and that includes for other Members 
of the Committee, who are given 5 minutes to ask questions. 
This is not like an ironclad rule, by the way. Just we actually 
are interested in what you have to say, not in the clock.
    After you've presented your remarks, the Subcommittee 
Members, in the order they arrived, will be permitted to ask 
questions of the witnesses, subject to the 5-minute limit.
    Pursuant to the direction of the Chairman of the Judiciary 
Committee, I ask the witnesses to please stand and raise your 
right hand to take the oath.
    [Witnesses sworn.]
    Mr. Cannon. The record should reflect that each of the 
witnesses answered in the affirmative, and you may be seated.
    Ms. Cooney, would you now please proceed with your 
testimony?

TESTIMONY OF MAUREEN COONEY, ACTING CHIEF PRIVACY OFFICER, U.S. 
        DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Ms. Cooney. Thank you. Chairman Cannon, Ranking Member 
Watt, and Members of the Committee, good afternoon. Thank you 
for the opportunity to speak to the issue of privacy in the 
hands of the Federal Government and most specifically on 
activities at the Department of Homeland Security, the role of 
the Chief Privacy Officer, and initiatives led by the 
Department's Privacy Office.
    As the Subcommittee well knows, the Department of Homeland 
Security was the first Federal agency to have a statutorily 
required Privacy Officer. We appreciate the support of this 
Committee. The inclusion of a senior official accountable for 
privacy policy and protections honors the value placed on 
privacy as an underpinning of our American freedoms and 
democracy. It also reflects Congress' understanding of the 
growing sensitivity and awareness of the ubiquitous nature of 
personal data, flows in both private and public sectors, and a 
recognition of the impact of those data flows upon our 
citizens' lives.
    At the most recent meeting of the Department's Data Privacy 
and Integrity Advisory Committee, which was created to advise 
the Secretary and the Chief Privacy Officer on significant 
privacy issues, Secretary Chertoff noted that the Department 
has the opportunity to build into the sinews of this 
organization respect for privacy and a thoughtful approach to 
privacy.
    Secretary Chertoff expressed a belief that I share. We want 
the Government to be a protector of privacy, and we want to 
build security regimes that maximize privacy protection and 
that do it in a thoughtful and meaningful way. If done right, 
it will be not only a long-lasting ingredient of what we do in 
Homeland Security but a very good template for what Government 
ought to do in general when it comes to protecting people's 
personal autonomy and privacy.
    The Chief Privacy Officer and the DHS Privacy Office have a 
special role working in partnership and collaboration across 
the Department to integrate privacy into the consideration of 
the ways in which the Department assesses its programs and uses 
technologies, handles information, and carries out our 
protective mission.
    The Privacy Office has oversight of privacy policy matters 
and information disclosure policy, including compliance with 
the Privacy Act of 1974, the Freedom of Information Act, and 
the completion of privacy impact assessments on all new 
programs or new collections of personal information as required 
by the E-Government Act of 2002 and section 222 of the Homeland 
Security Act of 2002.
    The Privacy Office also evaluates new technologies used by 
the Department for their impact on personal privacy. Further, 
the Chief Privacy Officer reports directly to the Secretary and 
is required to report to Congress on these matters, as well as 
on complaints about possible privacy violations.
    At this point, if I may, I would like to amplify my written 
testimony by speaking for a few minutes about the U.S. privacy 
framework that applies to the Federal space. In tandem, the 
Privacy Act of 1974, the Freedom of Information Act that 
promotes transparency of Government operations and 
accountability, a significant privacy principle, and the E-
Government Act of 2002 that augmented the Privacy Act by 
operationalizing privacy reviews for all new major data 
collection systems or significant changes to information 
systems provide a robust umbrella of privacy protections for 
which the United States can be proud and which I believe is 
second to none in the Government space. Notice, transparency, 
and accountability are key to our work in the privacy area.
    Today, I'm very happy to address our efforts in this regard 
with respect to the activities of the Department of Homeland 
Security from a seat at the table during the investment review 
process at DHS for technology acquisitions and program funding, 
through all steps of the technology and program lifecycle 
development process, the use of PIAs to integrate privacy 
considerations into standards, strategic planning for programs 
at the Department, and notice to the public through systems of 
record notices, to audits and oversight and the development of 
policy guidance and implementation on key data issues.
    I thank you again for the opportunity to share the 
accomplishments of the DHS Privacy Office, which I have noted 
in our written testimony, and hope to demonstrate through both 
the written and oral testimony the importance of privacy in the 
hands of the Department of Homeland Security and how important 
it is as a part of our culture. We appreciate the support this 
Subcommittee has given to our office and look forward to 
working with you on matters of mutual interest and concern.
    Thank you again.
    [The prepared statement of Ms. Cooney follows:]
                  Prepared Statement of Maureen Cooney
    Chairman Cannon, Ranking Member Watt, and Members of the 
Subcommittee, I am delighted to be back before you today to discuss 
Privacy in the Hands of the Government as it pertains to activities of 
the Department of Homeland Security and the efforts of the Privacy 
Office. Building privacy attentiveness into the very sinews of our 
still young agency is a responsibility that we take seriously at DHS.
    In the eight months that I have served as Acting Chief Privacy 
Officer, within the Privacy Office we have continued to develop and 
operationalize privacy policy for the Department, consistent with our 
statutory mission in Section 222 of the Homeland Security Act and with 
support and partnership throughout the Department. And as I hope the 
following testimony will demonstrate, we have been actively 
implementing our statutory responsibilities as part of the larger 
mission of the Department. By ensuring that the Department's programs, 
policies, personnel, and technologies account for and embrace fair 
information principles--the use of personal information for legitimate, 
tailored, and sound purposes--the Privacy Office has worked to enhance 
public trust in the Department and to ensure the protection of an 
essential right of our people.
    My predecessor, Nuala O'Connor Kelly, testified before this 
Subcommittee in February 2004, and outlined the first year activities 
of the DHS Privacy Office. I would like to update the Subcommittee on 
our continued work since that time and our plans for future 
initiatives.
    The Privacy Office has focused on making privacy an integral part 
of DHS operations. We often use the phrase ``operationalizing privacy'' 
to describe these efforts. We want DHS personnel to think about privacy 
every time they consider the collection, use, maintenance or disclosure 
of personally identifiable information. Our efforts to operationalize 
privacy have encompassed a number of activities.
              operationalizing privacy through compliance
    One way to operationalize privacy is to ensure that DHS is fully 
compliant with statutory privacy requirements and the DHS Privacy 
Office has been actively engaged in this effort.
    In my previous appearance before the Subcommittee, which focused on 
the use by the government of data from information resellers, I 
outlined for the Subcommittee how we have used the E-Government Act of 
2002's requirement that Privacy Impact Assessments be conducted for new 
or substantially revised information systems to make sure that privacy 
is built into DHS programs and that there is transparency about the 
types of information used by DHS as well as the purposes for which the 
information is used. PIAs are fundamental in making privacy an 
operational element within the Department and we have fully utilized 
this tool to embed privacy as part of DHS operations.
    To do this, we have updated and refined our guidance on conducting 
Privacy Impact Assessments and have distributed it widely both 
internally to DHS offices and programs and externally to other 
agencies. Along with the guidance, we also have issued a template for 
DHS offices to follow in drafting Privacy Impact Assessments. We have 
fully utilized our Privacy Office website for transparency purposes and 
have posted these documents so that the public is also aware of our 
guidance.
    ``Imitation is the sincerest form of flattery,'' according to an 
old expression, and I am happy to report that the DHS Privacy Office's 
PIA Guidance has served as the basis for other agencies' PIA 
activities. For example, our PIA template served as the basis for a 
model PIA for HSPD-12 (Common Identification Standards for Federal 
Employees) implementation, which was distributed by the Office of 
Management and Budget through its Interagency Privacy Committee. In 
addition, other federal agencies have requested to liberally borrow the 
guidance and we are happy to be able to share it and to add to 
government efficiency and harmonization of approaches to privacy in the 
government space.
    In addition to requiring that DHS programs conduct Privacy Impact 
Assessments for new or substantially revised programs, privacy is one 
of the issues that must be addressed before funding is awarded to a 
program that involves the collection, use and maintenance of personally 
identifiable information. The Privacy Office provides significant 
support to the DHS Office of the Chief Information Officer (OCIO) in 
the budget process by ensuring that all proposed spending on 
information technology investments that involve personally identifiable 
information meets privacy requirements. Not only are our programs 
required to complete a Privacy Threshold Analysis, which helps us to 
determine whether a full Privacy Impact Assessment is necessary, but 
funding for DHS programs through the budget process cannot go forward 
without program compliance with privacy mandates. The DHS Privacy 
Office therefore has a strong ``stick'' to accompany the ``carrot'' of 
funding to ensure that privacy becomes operationalized in DHS programs.
    Privacy compliance reviews are another important tool for 
operationalizing privacy into DHS programs, and during this past year, 
the Privacy Office undertook the first privacy review of what we expect 
to be many when we analyzed compliance by the U.S. Customs and Border 
Protection (CBP) with its Passenger Name Record (PNR) Undertakings. 
These Undertakings were provided by CBP to the European Commission in 
order to demonstrate that CBP has adequate privacy protocols in place 
to protect personally identifiable information as a condition precedent 
to receiving PNR information about European airline passengers. Based 
on the Undertakings, the EU agreed to share passenger name record 
information with CBP in order to fight terrorism and other serious 
crimes as well as to facilitate transatlantic travel.
    The Privacy Office's compliance review consisted of a full analysis 
of CBP policies and procedures, interviews with key managers and staff 
who handle PNR, and a technical review of CBP systems and 
documentation. This compliance review occurred over a several-month 
period and as a result of changes recommended by the Privacy Office or 
made unilaterally by CBP, we were able to conclude that CBP achieved 
full compliance with the representations it had made in the 
Undertakings. This finding was the primary factor in the ability of the 
Privacy Office to conclude a successful joint review, with 
representatives of the EU, of CBP's compliance with the US-EU PNR 
Agreement.
    We conducted a different kind of compliance review when we examined 
the use of commercial data by the Transportation Security 
Administration (TSA) in connection with the Secure Flight Program after 
privacy concerns were raised by the Government Accountability Office. 
We analyzed whether TSA's public notices about this use of commercial 
data for testing purposes matched the actual test protocols and made 
recommendations, as a result of this review. The Privacy Office 
continues to work closely with TSA to implement privacy statutory 
requirements and best practices in the design and implementation of 
this as well as other TSA screening programs.
    In compliance with the requirements of the Computer Matching and 
Privacy Protection Act, as amended, the Privacy Office established a 
Privacy and Data Integrity Board to approve matching agreements 
undertaken by DHS components, as required by law, and to weigh in on 
privacy policy issues of interest and concern to the Department. Our 
Board held several meetings at which we discussed ideas for responsible 
information handling, and the Board was instrumental in assisting the 
Privacy Office in completing several required reports.
    Ensuring publication of appropriate Privacy Act systems of records 
notices (SORNs) rounded out the Privacy Office's compliance activities. 
These notices, in fact, necessarily are a regular and ongoing part of 
the Privacy Office's work and of our statutory obligation to ensure 
that the Department maintains personally identifiable information in 
conformity with the requirements of the Privacy Act.
               operationalizing privacy through education
    A significant way to increase privacy awareness and ensure that it 
is embedded in DHS is through education and training. The Privacy 
Office trains all new DHS employees as part of their overall 
orientation to the Department. We continue to develop, moreover, more 
robust training courses to be provided to all DHS employees and 
contractors to augment their privacy background and to raise awareness 
and sensitivity about the importance of the respectful use of personal 
information by the Department. And we have conducted training on 
Privacy Impact Assessment requirements for individual DHS offices, 
information technology managers, business managers, and systems 
analysts. Establishing the lines of communication between DHS personnel 
and our office through these training programs helps us to get our 
message across and helps employees to be sensitized to proper 
information handling techniques.
    Our component privacy officers also make sure that employees in our 
components and offices are provided robust privacy training. I would be 
remiss, in fact, if I didn't emphasize the close collaboration and 
rapport our office has with other privacy officers in the Department, 
who were installed at our urging and who help the DHS Privacy Office 
carry out our important work
    In addition to our general education and training programs, the 
Privacy Office has conducted two workshops intended to raise privacy 
awareness among DHS personnel as well as the public. These workshops 
have drawn subject matter experts together to discuss privacy issues 
raised by homeland security programs. The issues we have explored are 
both relevant and topical. We have posted both transcripts and 
summaries of our activities on our website.
    I mentioned in my April 4, 2006 testimony before this Subcommittee 
that we had conducted a workshop on the government's use of commercial 
data for homeland security purposes. The objective of that workshop was 
to look at the policy, legal and technology issues associated with the 
government's use of commercial data in homeland security programs. Just 
last week our Privacy and Data Integrity Board held preliminary 
discussions on development of a policy regarding the use of commercial 
data by DHS, and the information we gleaned from our workshop will be 
helpful as we move forward on this vital issue.
    Last month, we conducted another workshop on the use of personal 
information by the government and how we can achieve transparency and 
accountability. This workshop sparked discussions about the utility of 
privacy notices to accomplish transparency and how those notices can be 
written in a way that is comprehensible while it is also comprehensive. 
We also discussed the utility of the Freedom of Information Act for 
fostering accountability through access to information about 
individuals that is maintained by the government. We were fortunate to 
have several panel members from other nations who could contribute a 
global perspective on this issue. Again, the workshop complemented our 
internal training efforts to raise privacy awareness and also served an 
important educational function to improve public understanding of DHS 
programs.
                    information sharing and outreach
    Information sharing has become a significant focus of the DHS 
Privacy Office. The Intelligence Reform and Terrorism Prevention Act 
established requirements for an information sharing environment. This 
legislative mandate augmented Executive Orders and Homeland Security 
Directives issued by President Bush all aimed at fostering a climate of 
robust exchanges of terrorism related information in a privacy 
sensitive manner. Executive Order 13356, for example, directed all 
departments and agencies to enhance the interchange of terrorism-
related information within the Federal government and between the 
Federal government and appropriate authorities of state and local 
governments. The DHS Privacy Office led the effort to integrate privacy 
protections into the planning process supporting the implementation of 
this Executive Order.
    Similarly, the DHS Privacy Office led the effort within DHS to 
integrate privacy protections at the earliest stages of implementing 
HSPD-11, a Presidential directive that concerns terrorist-related 
screening procedures. Within DHS, moreover, the Privacy Office has 
supported the work of the Information Sharing and Collaboration Office 
(ISCO), which was established to lead the creation of a DHS information 
sharing environment. The Privacy Office provided both resources and 
guidance to ISCO to help create a set of business rules for sharing 
personal information in a way that minimizes privacy intrusions while 
maximizing use of the data for homeland security purposes.
    The Privacy Office also participated in a number of interagency 
activities designed to foster inter-agency exchanges of information on 
privacy technologies and other privacy issues. We chair, for example, 
the Social, Legal and Privacy Subgroup of the National Science and 
Technology Council's (NSTC) Subcommittee on Biometrics. Established by 
Executive Order, NSTC is the principal means by which the President 
coordinates science, space, and technology policy across the 
government. NSTC's Subcommittee on Biometrics has examined issues 
related to the development and use of biometric technologies in the 
Federal government and the Social, Legal and Privacy Subgroup was 
responsible for developing a rich, centralized repository of 
information about the social history of biometrics, the legal framework 
that applies to the collection and use of biometrics, and the privacy 
principles that should govern the responsible use of this technology. 
Analysis of this repository and actual implementations resulted in a 
paper that connects privacy and biometrics at a structural level so 
that both fields can be understood within a common framework, thus 
enabling federal agencies and public entities to implement privacy-
protective biometric systems.
    We have also begun coordinating with the White House's Privacy and 
Civil Liberties Oversight Board on information sharing and other 
relevant issues. Through this work, the DHS Privacy Office is able to 
foster interagency cooperation, coordination and collaboration on 
privacy matters.
    The Privacy Office has also reached out to experts in the private 
sector to help us understand programmatic, policy, operational and 
technology issues that affect privacy, data integrity, and data 
interoperability. To that end, in April 2004, the Department chartered 
the Data Privacy and Integrity Advisory Committee (DPIAC) under the 
authority of Federal Advisory Committee Act to provide an external and 
expert perspective to the Secretary and Chief Privacy Officer. The DHS 
Privacy Office provides administrative and managerial support to the 
DPIAC. In return, the Committee has provided significant advice to the 
Chief Privacy Officer and the Secretary on important privacy 
considerations. The Committee offered its recommendations on TSA's 
Secure Flight Program, which have helped the DHS Privacy Office to 
formulate its own advice on this significant initiative. The Committee 
also provided guidance on the Use of Commercial Data to Reduce False 
Positives in Screening Programs, which will help inform any final 
policy that the Privacy Office recommends on this important topic. We 
expect to continue to get advice from the Committee on other issues of 
interest to the Department.
                       international initiatives
    Because the work of the Department is both national and 
international in scope, the work of the DHS Privacy Office is equally 
broad. The primary goal of the DHS Privacy Office's international 
activities has been to convey to the global community the importance of 
fair information practices to our office, the Department and the 
nation. We have devoted significant resources to working with programs 
in multilateral global forums, such as the OECD, as well region-centric 
international organizations such as the Asian Pacific Economic 
Cooperation forum (APEC). In addition, of course, the Privacy Office 
works with the European Union and on issues raised by the Joint 
Supervisory Body representatives of Europol and Eurojust.
    We have had substantial input on a number of international privacy 
initiatives, including the Enhanced International Travel Security 
Initiative (EITS), under the leadership of DHS's Science and Technology 
Directorate and US-VISIT, and real-time sharing of lost and stolen 
passports in a way that properly protects privacy, through an APEC-
sponsored initiative known as the Regional Movement Alert List. The 
Privacy Office also works more generally within international 
organizations to shift the international privacy dialogue away from 
conflicting laws to compatible privacy principles in order to foster 
information sharing for homeland security and other necessary purposes. 
Our work has been helpful in improving international opinion regarding 
the United States Government's attention to privacy principles in the 
design and operation of information systems.
                           future activities
    As I hope the foregoing demonstrates, the DHS Privacy Office takes 
a comprehensive approach to its statutory mission and has worked on a 
wide range of initiatives to ensure that privacy policy concerns are 
part of the necessary dialogue on the development and implementation of 
homeland security programs. We have been fortunate that Congress has 
provided funding to allow us to expand our staff of dedicated privacy 
professionals whose credentials rival those of anyone in the government 
or the private sector. And we are energized as we look ahead to some 
future activities.
    We recently completed a draft of a report on data mining, which is 
required by the 2005 DHS Appropriations Act, and we expect to continue 
our study of data mining programs at the Department in the coming year. 
Data mining can be a useful and important tool in the war against 
terrorism, and we are committed to ensuring that this technique is used 
responsibly and appropriately at DHS.
    We have already planned our next privacy workshop to focus on 
Privacy Impact Assessments. This timely session will enable DHS program 
officers to comply with the privacy requirements necessary for approval 
of their funding requests. We are also finalizing arrangements for the 
next DPIAC meeting, which will be held in California, and which will 
focus on expectations of privacy in public spaces and the use of RFID 
technology, two issues that have significant ramifications for 
Departmental activities.
    We plan to work closely with the OCIO to build privacy protections 
into every system across DHS, and we intend to collaborate with the 
Science and Technology Directorate to add privacy protections to the 
approval process for new homeland security research initiatives.
    Because they are our ``bread and butter'' issues, the DHS Privacy 
Office will also continue to work to ensure that individual programs 
sustain and enhance privacy protections through strict compliance with 
the PIA and SORN requirements of federal law. We will continue to 
refine our privacy guidance and enhance our privacy training 
initiatives to foster a culture of privacy awareness within the agency.
    We expect to complete development of a policy for the respectful 
and appropriate use of commercial data for homeland security purposes. 
And we anticipate that in the international arena, we will continue to 
be an important voice for the development of privacy-appropriate cross-
border information sharing policies.
    Thank you for the opportunity to share the accomplishments of the 
DHS Privacy Office and to demonstrate, through this testimony, the 
importance of privacy ``in the hands'' of the Department of Homeland 
Security. We appreciate the support this Subcommittee has given to our 
office and look forward to working with you on matters of mutual 
interest and concern.

    Mr. Cannon. Thank you, Ms. Cooney.
    Ms. Horvath, you are recognized for 5 minutes.

TESTIMONY OF JANE C. HORVATH, CHIEF PRIVACY AND CIVIL LIBERTIES 
      OFFICER, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Ms. Horvath. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me to testify regarding the Department 
of Justice Privacy and Civil Liberties Office in connection 
with the Committee's hearing.
    I started as the Department of Justice's Chief Privacy and 
Civil Liberties Officer on February 21, 2006. I am responsible 
for Department-wide protection of privacy and civil liberties. 
During my first 30 days at the Department of Justice, we 
assessed the existing privacy and civil liberties functions at 
the Department. I met with senior officials of the DOJ 
components that had either privacy or civil liberties 
responsibilities within the Department. At all of these 
meetings, I was welcomed with enthusiasm. I received detailed 
briefings regarding their privacy and civil liberties efforts. 
From those meetings, we were able to determine priorities for 
the Office of Privacy and Civil Liberties.
    After meeting with the Chief Information Officer, we 
decided to centralize the privacy impact assessment process. We 
determined that the PIA process within the Department would be 
much more effective if all the components were working from a 
standard template with standard guidance. Utilizing some of the 
aspects of the DHS model, we drafted official PIA guidance, a 
privacy threshold analysis to determine whether a PIA is 
required, and a new PIA template. Next month, we're going to 
hold a 1-day training session on PIA preparation and Privacy 
Act issues with members of the CIO staff and persons within the 
components who are responsible for Privacy Act issues.
    In furtherance of our civil liberties missions, we set up 
and launched a DOJ Privacy and Civil Liberties Board on April 
17, 2006. Representatives of the law enforcement, national 
security, and other relevant components are represented on the 
Board. We have subdivided the Board into three separate 
committees: an Outreach Committee, focusing on outreach to the 
Arab, Muslim, and other ethnic or religious minority 
communities; a Data Committee, examining issues related to 
information privacy within the Department; and a Law 
Enforcement Committee, providing a forum for law enforcement to 
discuss effort that might have an impact on civil liberties or 
privacy.
    Shortly after I arrived, we started to reach out to privacy 
advocacy and public policy groups. We've met with 
representatives from the ACLU, Center for Democracy and 
Technology, Cato Institute, Heritage Foundation, the Center for 
Information Policy Leadership at Hunton and Williams, and Peter 
Swire, the former Chief Counselor for Privacy in the U.S. 
Office of Management and Budget.
    We've also been active in intergovernmental groups and 
efforts. We believe that by working together as a group, 
privacy officers within the Government can utilize each other's 
collective experience.
    Our office has also been active in advising the Department 
of information-sharing initiatives. While information sharing 
is an incredibly important initiative for our security, it also 
involves important privacy and civil liberties issues. We are 
pleased that the Administration and the Attorney General has 
recognized the importance of addressing these issues at the 
inception of information-sharing programs.
    Since my arrival, I have co-chaired the President's 
Information Sharing Environment Guideline 5 Working Group with 
Alex Joel, the Director of National Intelligence Civil 
Liberties Protection Officer. Guideline 5 of the December 16th 
memorandum from President George W. Bush requires, in relevant 
part, that the Attorney General and the Director of National 
Intelligence develop guidelines designed to be implemented by 
executive departments and agencies to ensure that the 
information privacy and other legal rights of Americans are 
protected in the development and use of the ISE, including in 
the acquisition, access, use, and storage of personally 
identifiable information. We also look forward to working with 
the President's Privacy and Civil Liberties Oversight Board on 
the guidelines.
    The Privacy and Civil Liberties Office also oversees the 
Department's compliance with the Privacy Act of 1974 and plays 
an active role in ensuring that the Department's law 
enforcement, litigation, and anti-terrorism missions are 
carried out in accordance with its provisions. We also provide 
Privacy Act guidance within the Department, both in response to 
specific inquiries raised by the components and through 
training programs.
    Although I have only been at DOJ a short while, my arrival 
has been greeted with enthusiasm. We have been consulted on 
numerous initiatives. In the coming year, we hope to launch new 
efforts, such as more extensive privacy and civil liberties 
training, that will further the office's mission of protecting 
the privacy and civil liberties of those who interact with the 
Department of Justice.
    Thank you for the opportunity to speak today.
    [The prepared statement of Ms. Horvath follows:]
                 Prepared Statement of Jane C. Horvath
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Cannon. Thank you, Ms. Horvath.
    Professor Katzen?

 TESTIMONY OF SALLY KATZEN, PROFESSOR, GEORGE MASON UNIVERSITY 
                   LAW SCHOOL, ARLINGTON, VA

    Ms. Katzen. Thank you, Mr. Chairman, Ranking Member Watt, 
other Members of the Committee. I appreciate the invitation for 
me to testify today, as I did several years ago, about 
Government policies and practices that implicate privacy.
    As the Chairman noted, privacy is one of the hallmarks of 
our country--cherished, protected, defended throughout our 
history. Since September 11, 2001, the debate has changed 
somewhat as the commitment to privacy has often been spoken in 
the context of national security and the need for combating 
terrorism. But protecting our privacy and protecting our Nation 
are not mutually exclusive goals, and our challenge is to 
protect and defend our country in a way that promotes our core 
values.
    Now, I belabor this point because in the 2 years since I 
appeared before this Committee, the concern for privacy and 
what many Americans believe to be invasions of their privacy by 
the Government has increased rather than decreased. More 
articles about privacy policies and practices appear more 
frequently in the press. There are more stories on radio and 
television, and there is significantly more attention paid to 
privacy on the Internet than ever before. The time devoted over 
the last several weeks or months in public discourse to the 
warrantless wiretaps by the National Security Agency and the 
decision of some common carriers to release to the Government 
information about calls made by millions of Americans is a 
clear indication of Americans' commitment to and concern about 
privacy.
    Given the importance of privacy and its persistence in the 
national debate, it's somewhat surprising that this 
Administration has seemed so reluctant to take even minimal 
steps to address these concerns. For example, one of the 
subjects of today's hearing is the Privacy Officer at DHS. When 
I last testified, I spoke in highly favorable terms of the 
appointment of Ms. Kelly as the first statutorily required 
privacy official at DHS. I stressed both the beneficial 
attention that was being paid to privacy concerns and the fact 
that having a privacy officer at DHS in no way diminished the 
capacity of the Department to pursue its mission.
    Ms. Kelly resigned from DHS last September, and with 
respect to Ms. Cooney, we have in place an Acting Privacy 
Officer. The job is hard enough. To be heard in policy decision 
meetings, to be listened to when red flags are raised about a 
proposal's privacy implications, to be supported when a hand 
goes up and says, ``Maybe we should reconsider, maybe we should 
do it differently,'' that job is not easy even for a tenured 
employee. It is so much harder for an acting.
    There may well be legitimate reasons that there has been a 
delay in finding and installing Ms. Kelly's replacement, but 
the unexpected and unexplained delay raises unfortunate 
questions. Is it a lack of interest? Is it a lack of support by 
the Secretary of DHS or by the White House?
    In the same vein, I would mention that it has taken a very 
long time for the White House to nominate and have the Senate 
confirm the members of the Privacy and Civil Liberties Board 
which Ms. Horvath spoke about. That, too, was set up by an Act 
of Congress which was responding to legitimate questions and 
concerns about Government policies.
    In light of these examples, I would call for more oversight 
by Congress and, equally more important, more legislation 
concerning and empowering officials in the Government. In my 
written testimony, I remind the Committee that I had urged that 
there be statutory privacy officers at all major departments. I 
am pleased that the Department of Justice now has one. I hope 
that you will work with other Members of Congress and other 
Committees to expand that base. And without being too pushy, I 
would again renew my suggestion that the Committee support 
establishing at OMB a statutory office headed by a Chief 
Counselor for Privacy. Such an office was created and staffed 
during the Clinton administration, and it served us well. The 
current Administration chose not to fill that position when 
they took office or since. As a result, there is no senior 
official in the Executive Office of the President who has 
privacy in his or her title or who is charged with oversight of 
Federal privacy policies. Yet it's so much better to have 
privacy considered at the outset rather than after the plans 
are implemented and the stories appear on the front pages.
    My time is running. I have comments about the markup. 
Otherwise, I think it's a great bill in many respects. I 
support the concept. And maybe during the questions and answers 
I could speak to that.
    I want to thank you again for asking me to participate.
    [The prepared statement of Ms. Katzen follows:]
                   Prepared Statement of Sally Katzen
    Mr. Chairman and other Members of the Committee. Thank you for 
inviting me to testify today on a subject--``Privacy in the Hands of 
the Government''--that is exceedingly important to the American public 
and on which this Committee has commendably been actively engaged.
    This hearing is a follow on to one at which I testified on February 
10, 2004. With the permission of the Committee, I would request that 
the written testimony that I prepared then be appended to my submission 
for this hearing; much of the background and analysis presented in that 
document remain pertinent today and incorporating it by reference will 
enable me to better focus on more recent developments.
    I have been involved in privacy policy and practices for well over 
a decade, having served as the Administrator of the Office of 
Information and Regulatory Affairs (OIRA) in the Office of Management 
and Budget (OMB) from 1993 to 1998 and as the Chair of the Information 
Policy Committee of the National Information Infrastructure Task Force, 
which produced, among other things, a revision of the 1973 Code of Fair 
Information Practices, entitled ``Principles for Providing and Using 
Personal Information.'' During my later tenure as Deputy Director of 
the National Economic Council and then as Deputy Director for 
Management at OMB, I was involved in a series of privacy issues, any my 
interest in the subject has continued during my years in academics.
    My earlier testimony spoke to the importance of privacy in our 
history and culture, and why I believe that privacy is one of the 
hallmarks of America--cherished, protected and defended throughout our 
country and throughout the years.
    The arrival of the Information Age raised privacy concerns to a new 
level, although after September 11, 2001, this was tempered by a clear 
recognition of the importance of security and the need for combating 
terrorism. But protecting our privacy and protecting our nation are not 
mutually exclusive goals. Rather, the challenge for all of us is to 
protect and defend our country in a way that preserves and promotes our 
core values.
    I belabor this point because in the two years since I appeared 
before this Committee, the concern for privacy (and what many Americans 
believe to be invasions of their privacy) has increased rather than 
decreased. More articles about privacy policies and practices appear 
more frequently in the press, there are more stories on the radio and 
television, and there is significantly more attention paid to privacy 
on the Internet than ever before. The time devoted over the last 
several weeks/months in public discourse to the warrantless wiretaps by 
the National Security Agency and the decision of some common carriers 
to release to the government information about calls made by millions 
of Americans is a clear indication of Americans' continued commitment 
to, and concern about, privacy.
    Given the importance of privacy and its persistence in the national 
debate, it is somewhat surprising that this Administration has seemed 
to be so reluctant to take even minimal steps to address these 
concerns. For example, when I last testified, I spoke of the generally 
highly favorable reactions to the tenure of Nuala O'Connor Kelly as the 
first statutorily required privacy official at the Department of 
Homeland Security (DHS). I stressed both the beneficial attention that 
was paid to privacy concerns and the fact that having a privacy officer 
at DHS in no way diminished the capacity of the Department to pursue 
its mission. Ms. Kelly resigned from DHS many months ago, and 
regrettably there is only an Acting privacy officer in place. Is it a 
lack of interest or a lack of support for the position by the current 
Secretary of DHS? Or by the White House? There may well be legitimate 
problems in finding and installing Ms. Kelly's replacement, but the 
unexplained delay sends a very bad signal to those who follow these 
developments as an indication of the Administration's commitment to 
privacy. In that same vein, it is worth noting that it took the longest 
time for the White House to nominate and have the Senate confirm the 
members of the Privacy and Civil Liberties Board, which is a committee 
established by another act of Congress designed to respond to what were 
perceived as legitimate questions and concerns about government 
policies with respect to privacy.
    In light of these examples, I would call for more oversight by the 
Congress and, equally important, more legislation creating and 
empowering officials in the government with responsibility for privacy 
policy. I had urged in my earlier testimony that the Committee consider 
expanding the number of statutory privacy offices from one to 24, 
covering all major Departments (the so-called Chief Financial Officers 
Act agencies) or at least a handful of critical agencies, including the 
Department of Justice, the Department of the Treasury (and the Internal 
Revenue Service), the Department of Defense and the Veterans 
Administration, the Social Security Administration, and the Department 
of Health and Human Services. I was pleased when Congress enacted 
legislation establishing a privacy officer at the Department of 
Justice. With respect, I would again urge this Committee to work with 
others in the Congress to expand on this base. OMB guidance from two 
administrations (issued first during the Clinton Administration and 
repeated several years ago by the Bush Administration) has called for 
the creation of such offices in Executive Branch agencies. The 
imprimatur of Congress would enhance the influence and respect that 
these officers have within their Departments. Equally important, by 
establishing statutory privacy offices, the Congress would be able to 
engage in systematic oversight of the attention paid to this important 
value in the federal government.
    I would also renew my suggestion that Congress establish at OMB a 
statutory office headed by a Chief Counselor for Privacy. Such an 
office was created and staffed during the Clinton Administration, and 
it served us well. The current Administration chose not to fill the 
position when they took office or since. As a result, there is no 
senior official in the Executive Office of the President who has 
``privacy'' in his/her title or who is charged with oversight of 
federal privacy practices, monitoring of interagency processes where 
privacy is implicated, or developing national privacy polices. Yet it 
is so much better to have privacy implications considered beforehand--
in the formulation of program or projects--rather than after the plans 
are implemented and the stories about them begin to appear on the front 
pages of the national newspapers. And apart from damage control, having 
someone on the ``inside'' addressing these issues may provide some 
brakes on the runaway train of surveillance.
    Finally, I understand that after this hearing, the Committee will 
move to mark up H.R. 2840, the ``Federal Agency Protection of Privacy 
Act of 2005.'' That bill reflects a commendable desire to ensure that 
privacy impact statements are prepared by federal agencies as they 
develop regulations that involve the collection of personal 
information. Several thoughts occurred to me as I was rereading the 
text for today's hearing.
    First, Subsection (c) provides that an agency head may waive the 
requirements for a privacy impact statement ``for national security 
reasons, or to protect from disclosure classified information, 
confidential commercial information, or information the disclosure of 
which may adversely affect a law enforcement effort . . .'' Apart from 
the fact that the basis for a waiver goes well beyond national 
security, I recalled that there is a similar provision in the E-
Government Act of 2002, which requires a privacy impact assessment for 
new federal government computer systems, but instead of giving an 
essentially free pass for national security concerns, Section 208 (b) 
(1) (D) of that Act requires the agency to provide the privacy impact 
assessment to the Director of OMB. I would recommend that such a 
provision be included in H.R. 2840 and, in addition, that the bill 
provide that a copy of the analysis be sent to the Congressional 
Intelligence Committees in the case of national security waivers and 
the Congressional Judiciary Committees in the case of law enforcement 
related waivers. In that way, there could be government-wide Executive 
Branch oversight and, equally important, Congressional oversight over 
agency decision-making in this area.
    Second, the provisions of H.R. 2840 requiring an agency to prepare 
a plan for, and carry out, a periodic review of existing regulations 
that have a significant privacy impact on individuals or a privacy 
impact on a significant number of individuals are quire detailed and 
quite prescriptive. Rather than specifying all of the factors to be 
considered, and the timetable and procedures for each element of the 
review, it might be preferable to set forth un the bill the objectives 
of a periodic review and task OMB with providing guidance for the 
agencies as to how they should proceed. In this way, the terms are not 
cast in concrete but can be more readily adjusted as changes occur, 
either with respect to content or with respect to technology.
    With those modest suggestions, I would endorse the bill and once 
again commend this Committee for its effective and persistent 
leadership on these very important issues.
    Again, thank you for inviting me to testify today. I would be 
pleased to elaborate on these comments or answer any questions that you 
may have.
                               __________

                               ATTACHMENT

    Prepared Statement of Sally Katzen before the Committee on the 
   Judiciary, Subcommittee on Commercial and Administrative Law, on 
  February 10, 2004 on ``Privacy in the Hands of the Government: The 
       Privacy Officer for the Department of Homeland Security''
    Thank you for inviting me to testify today on a vitally important 
subject--``Privacy in the Hands of the Government.'' This Committee is 
to be congratulated, not only for its leadership in creating a 
statutory Privacy Officer in the Department of Homeland Security (DHS), 
but also for being vigilant in its oversight of that office.
    I am currently a Visiting Professor at the University of Michigan 
Law School, where one of my courses is a seminar on ``Technology Policy 
in the Information Age''--a significant portion of which is devoted to 
examining both the government and the private sector's privacy policies 
and practices. I have been involved in privacy policy for over a 
decade. In early 1993, I began serving as the Administrator of the 
Office of Information and Regulatory Affairs (OIRA) in the Office of 
Management and Budget (OMB); the ``I'' in OIRA signaled that I was, in 
effect, the chief information policy official for the federal 
government. Among other responsibilities, my office was charged with 
developing federal privacy policies, including implementation of the 
1974 Privacy Act. Later in 1993, I was asked to chair the Information 
Policy Committee of the National Information Infrastructure Task Force, 
which had been convened by the Vice President and chaired by then 
Secretary of Commerce Ronald Brown. One of the first deliverables we 
produced was from my committee's Privacy Working Group--a revision of 
the 1973 Code of Fair Information Practices, entitled ``Principles for 
Providing and Using Personal Information.'' During President Clinton's 
second term, I worked with the Vice President's Domestic Policy Advisor 
to create a highly visible and effective office for privacy advocacy in 
OMB; we selected Peter Swire to head that office and be the first Chief 
Counselor for Privacy, and I worked closely with him when I served as 
Deputy Director for Management at OMB during the last two years of the 
Clinton Administration. Since leaving government, I have, as indicated 
earlier, been teaching both at the graduate and undergraduate level.
    Given the Committee's extensive work in this area, it is not 
necessary to speak at length on the importance of privacy in the 
history and culture of our country. Nonetheless, to provide context for 
the comments that follow, I want to be clear that, from my perspective, 
privacy is one of the core values of what we are as Americans. Whether 
you trace its roots from the first settlers and the ``frontier'' 
mentality of the early pioneers, or from the legal doctrines that 
flowed from Justice Brandeis' oft-quoted recognition in the late 19th 
century of ``the right to be let alone,'' privacy has been one of the 
hallmarks of America--cherished, prized, protected and defended 
throughout our country and throughout our history.
    The ``Information Age'' has brought new opportunities to benefit 
from the free flow of information, but at the same time it has also 
raised privacy concerns to a new level. Computers and networks can 
assemble, organize and analyze data from disparate sources at a speed 
(and with an accuracy) that was unimaginable only a few decades ago. 
And as the capacity--of both the government and the private sector--to 
obtain and mine data has increased, Americans have felt more 
threatened--indeed, alarmed--at the potential for invasion (and 
exploitation) of their privacy.
    Before September 11, 2001, privacy concerns polled off the charts. 
Since then, there has been a recognition of the importance of security 
and the need for combating terrorism. But, as the Pew Internet surveys 
(and others) have found, Americans' commitment to privacy has not 
diminished, and some would argue (with much force) that if, in 
protecting our nation, we are not able to preserve a free and open 
society for our public lives, with commensurate respect for the privacy 
of our private lives, then the terrorists will have won. For that 
reason, it was both necessary and desirable in creating a Department of 
Homeland Security to statutorily require the Secretary to appoint a 
senior official with primary responsibility for privacy policy. Ms. 
Kelly was selected for that position and took office about six months 
ago.
    We thus have some--albeit limited--operational experience with the 
statutory scheme, and it is therefore timely to see what we have 
learned and what more could (and should) be done by this Committee to 
be responsive to privacy concerns.
    I would draw two lessons from Ms. Kelly's tenure to date at DHS.
    First, the existence of a Privacy Officer at DHS, especially 
someone who comes to the position with extensive knowledge of the 
issues and practical experience with the federal government, is highly 
beneficial. We know that some attention is now being paid to privacy 
concerns and that steps are being taken to advance this important value 
that might otherwise not have occurred.
    Consider the CAPPS II project, in which Ms. Kelly has recently been 
involved. She inherited a Privacy Act Notice issued last winter that 
was dreadful. She produced a Second Privacy Act Notice that reflected 
much more careful thought about citizens' rights and provided more 
transparency about the process. Regrettably, there was some 
backsliding: the initial concept was that the information would be used 
only to combat terrorism, whereas the second Notice indicated that the 
information would be used not only for terrorism but also for any 
violation of criminal or immigration law. Also, the document was vague 
(at best) on an individual's ability to access the data and to have 
corrections made. And there was more that should have been said about 
the manner in which the information is processed through the various 
data bases. But there is no question that the Second Notice was greatly 
improved from the first.
    Ms. Kelly was also involved with the US VISIT program, where she 
produced a Privacy Impact Analysis (PIA). Some had argued that a PIA 
was not required because the program did not directly affect American 
citizens or permanent residents. Nonetheless, to her credit, she 
prepared and issued a PIA that was quite thoughtful and was well 
received. Whether one agrees or disagrees with the underlying program, 
at least we know that someone was engaged in the issues that deserve 
attention and the product of that effort was released to the public.
    As someone outside the government, it is hard to know how 
influential Ms. Kelly will be if--and it inevitably will happen--there 
is a direct conflict between what a program office within DHS wants to 
do and what the Privacy Officer would counsel against for privacy 
reasons. Effectiveness in this type of position depends on autonomy and 
authority--that is, on the aggressiveness of the office holder to call 
attention to potential problems and on support from the top. We may 
take some comfort from Secretary Ridge's comments; he has said all the 
right things about supporting the Privacy Officer. But we cannot now 
know what will happen when the ``rubber meets the road.''
    This Committee, however, can further empower the Privacy Officer, 
and lay the foundation for remedying any problems that may arise, by 
maintaining its oversight and inquiring pointedly into how the 
Department operates. For example, Ms. Kelly (and Secretary Ridge) 
should be asked at what stage she is alerted to or brought into new 
initiatives; what avenues are open for her to raise any questions or 
concerns; and whether the Secretary will be personally involved in 
resolving any dispute in which she is involved. The timing of the 
release of the PIA for the US VISIT program suggests that Ms. Kelly may 
not always be consulted on a timely basis. As I read the E-Government 
Act of 2002, an agency is to issue a PIA before it develops or procures 
information technology that collects, maintains or disseminates 
information that is in an identifiable form. In this instance, the PIA 
was released much further down the road, when the program was about to 
go on line. Anything that helps the Privacy Officer become involved in 
new initiatives at the outset, before there is substantial staff (let 
alone money) invested in a project, would be highly salutary.
    The second lesson that I take from the experience to date with the 
Privacy Officer at DHS is that there has been no diminution in the 
capacity of the Department to pursue its mission. Or as a political wag 
would say, the existence of a Privacy Officer in DHS has not caused the 
collapse of western civilization as we know it. This is wholly 
consistent with what most Americans think--that national security and 
privacy are compatible and are not intrinsically mutually exclusive.
    The fact that there is no evidence that the existence, or any 
activity, of the Privacy Officer has caused DHS to falter leads me to 
suggest that the Committee consider expanding the number of statutory 
privacy offices from one to 24, covering all major Departments (the so-
called Chief Financial Officers Act agencies) or at least a handful of 
critical agencies. Imagine the salutary effect that a statutory privacy 
office could have at the Department of Justice, the Department of the 
Treasury (and the Internal Revenue Service), the Department of Defense 
and the Veterans Administration, the Social Security Administration, 
and the Department of Health and Human Services. All of these agencies 
already have some form of privacy office in place, although many simply 
process Privacy Act complaints, requests, notices, etc. and do not 
involve themselves in the privacy implications of activities undertaken 
by their agencies. It is significant, I believe, that OMB guidance from 
two administrations (issued first during the Clinton Administration and 
repeated recently by the Bush Administration) has called for the 
creation of such offices in Executive Branch agencies. With the 
imprimatur of Congress, these offices can achieve the status (and 
increased influence) and gain the respect that the Privacy Officer has 
enjoyed at DHS. Equally important, by establishing statutory privacy 
offices, the Congress will be able to engage in systematic oversight of 
the attention paid to this important value in the federal government--
something which has not occurred before this hearing today.
    I hope I do not seem presumptuous to suggest--indeed, strongly 
urge--one further step: establishing at OMB a statutory office headed 
by a Chief Counselor for Privacy. As noted above, we had created such a 
position during the Clinton Administration, and it served us well. 
Peter Swire, the person we selected to head that office, was able to 
bring his knowledge, insights, and sensitivity to privacy concerns to a 
wide range of subjects. In his two years as Chief Counselor, he worked 
on a number of difficult issues, including privacy policies (and the 
role of cookies) on government websites, encryption, medical records 
privacy regulations, use and abuse of social security numbers, and 
genetic discrimination in federal hiring and promotion decisions, to 
name just some of the subjects that came from various federal agencies. 
He was also instrumental in helping us formulate national privacy 
policies that arose in connection with such matters as the financial 
modernization bill, proposed legislation to regulate internet privacy, 
and the European Union's Data Protection Directive.
    I believe it is unfortunate that the current Administration has 
chosen not to fill that position. As a result, there is no senior 
official in the Executive Office of the President who has ``privacy'' 
in his/her title or who is charged with oversight of federal privacy 
practices, monitoring of interagency processes where privacy is 
implicated, or developing national privacy polices. Perhaps it was the 
absence of such a person that led to the Bush Administration's initial 
lack of support for the designation of a Privacy Officer at the 
Department of Homeland Security. Perhaps if someone had been appointed 
to that position, the Administration would not have appeared to be so 
tone deaf to privacy concerns in connection with the Patriot Act or any 
number of law enforcement issues that have made headlines over the past 
several years. An ``insider'' can provide both institutional memory and 
sensitivity to counterbalance the unfortunate tendency of some within 
the government to surveil first and think later. At the least, the 
appointment of a highly qualified privacy guru at OMB would mean that 
someone in a senior position, with visibility, would be thinking about 
these issues before--rather than after--policies are announced.
    Finally, I understand that after this Hearing, the Committee will 
move to mark up H.R. 338, ``The Defense of Privacy Act.'' That bill 
reflects a commendable desire to ensure that privacy impact statements 
are prepared by federal agencies as they develop regulations which may 
have a significant privacy impact on an individual or have a privacy 
impact on a substantial number of individuals. I was struck in 
reviewing the E-Government Act of 2002 for this testimony that it 
requires an agency to prepare a PIA not only before it develops or 
procures information technology that implicates privacy concerns, but 
also before the agency initiates a new collection of information that 
will use information technology to collect, maintain or disseminate any 
information in an identifiable form. This law has gone into effect, OMB 
has already issued guidance on how to prepare the requisite PIAs, and 
the agencies are learning how to prepare these PIAs using that model. 
Rather than impose another regime on agencies when they are developing 
regulations (which are frequently the basis for the information 
collection requests referenced in the E-Government Act of 2002), it 
might be preferable to amend the E-Government Act to expand its 
requirements to apply to regulations that implicate privacy concerns. 
That approach would have the added benefit of eliminating the 
inevitable debate over the judicial review provisions of H.R. 338, 
which go significantly beyond the judicial review provisions of any of 
the comparable acts (e.g., Reg.Flex., NEPA, Unfunded Mandates, etc.). 
Lastly, if you were to amend the E-Government Act to include privacy-
related regulations, you might also consider including privacy-related 
legislative proposals from the Administration. As you know, Executive 
Branch proposals for legislation are reviewed by OMB before they are 
submitted to the Congress. If there were a Chief Counselor for Privacy 
at OMB, s/he would be able to provide input for the benefit of the 
Administration, the Congress and the American people.
    Again, thank you for inviting me to testify today. This Committee 
has been an effective leader on privacy issues, and it is encouraging 
that you are continuing the effort. I would be pleased to elaborate on 
these comments or answer any questions that you may have.

    Mr. Cannon. Thank you, Professor.
    Ms. Koontz?

  TESTIMONY OF LINDA KOONTZ, DIRECTOR, INFORMATION MANAGEMENT 
 ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Ms. Koontz. Mr. Chairman and Members of the Subcommittee, I 
appreciate the opportunity to be here today to discuss key 
challenges facing Federal privacy officers. As you know, 
advances in information technology make it easier than ever for 
the Federal Government to acquire data on individuals, analyze 
it for a variety of purposes, and share it with other 
governmental and nongovernmental entities. Further, the demands 
of the war on terror put additional pressure on agencies to 
extract as much value as possible from the information 
available to them, adding to the potential for compromising 
privacy.
    This is the context in which agencies must carry out their 
critical responsibilities for protecting the privacy rights of 
individuals in accordance with current law. To do so, many 
agencies have designated privacy officers to act as focal 
points. Recently, these positions have gained greater 
prominence. In response to rising concerns about privacy rights 
in our electronic age, both legislation and guidance have 
directed agencies to establish chief privacy officers or to 
ensure that a senior official takes overall responsibility for 
information privacy.
    Privacy issues have also been at the heart of several 
studies that the Congress has asked us to perform over the past 
few years. Our results highlight some of the challenges faced 
by agencies and privacy officials.
    First, compliance with current law has posed challenges. In 
2003, we reported that agency compliance with the requirements 
of the Privacy Act was uneven. Agencies reviewed generally did 
well with certain aspects of the requirements, such as issuing 
public notices about systems containing personal information. 
However, they did less well at others, such as ensuring that 
information was complete, accurate, relevant, and timely before 
it was disclosed to a non-Federal organization.
    Agency officials told us that they needed more leadership 
and guidance from the Office of Management and Budget to help 
them with implementation in a rapidly changing environment. 
Similarly, agencies have not always complied with the E-
Government Act requirement that agencies perform privacy impact 
assessments, or PIAs, on certain systems containing personal 
information. Such assessments are important to ensure that 
information is handled in a way that protects privacy.
    Although we have not yet done a comprehensive assessment of 
agencies' implementation of PIAs, we did determine in recent 
work on commercial data resellers that many agencies did not 
perform PIAs on systems that used reseller information because 
they believe that a PIA was not required.
    Privacy officers also face the challenge of ensuring that 
privacy protections are not compromised by advances in 
technology. For example, Federal agencies are increasingly 
using data mining, that is, analyzing large amounts of data to 
uncover hidden patterns. Initially, this tool was used mostly 
to detect financial fraud and abuse, but its use has expanded 
to include purposes such as detecting terrorist threats.
    In 2005, in a review of five different data-mining efforts 
at selected agencies, we reported that these agencies did take 
many of the steps needed to protect privacy. However, none 
followed all key procedures. For instance, although they did 
issue public notices, these notices did not always describe the 
intended uses of personal information as required.
    Another new technology presenting privacy challenges is 
radio frequency identification, or RFID. This technology uses 
wireless communications to transmit data and electronically 
track and store information on tags attached to or embedded in 
objects. As we reported in 2005, Federal agencies use or 
propose to use RFID for physical access controls and to track 
access. For example, DOD uses it to track shipments. Although 
this kind of inventory control application is not likely to 
generate privacy concerns, RFID use could raise issues if, for 
example, people were not aware that the technology is being 
used and that it could be embedded in items they are carrying 
and be used to track them.
    Agency privacy offices will play a key role in addressing 
the challenges I have described. They will be instrumental in 
ensuring that agencies comply with legislative requirements and 
in ensuring that privacy is fully addressed in agency 
approaches to new technologies. In addition, chief privacy 
officers are in a position to work with OMB and other agencies 
to identify ambiguities and clarify the applicability of 
privacy requirements. Not least, they can work to increase 
agency awareness and raise the priority of privacy issues.
    That concludes my statement. I would be happy to answer 
questions at the appropriate time.
    [The prepared statement of Ms. Koontz follows:]
                 Prepared Statement of Linda D. Koontz
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Cannon. Thank you, Ms. Koontz.
    I just need to point out that we just had a panel of four 
participants who all finished within seconds of the 5 minutes. 
I have never seen that before in my life. Obviously, we have 
some well-experienced panelists.
    We have a significant problem here. We are going to try and 
mark this bill up today, and we have six votes probably between 
2:45 and 3:15. And so--yeah, we'll have six votes, so that 
means that--let me just suggest that I'm not going to ask 
questions, and all the Members of the panel can ask written 
questions.
    Professor, I suspect you have your comments already 
written, and if you could submit those. You suggested you had 
more that you wanted to say. Do you have that in written form 
already?
    Ms. Katzen. Yes, Mr. Chairman. My written testimony 
includes two modest suggestions, one of which relates to the 
national security issue, and I think it is important.
    Mr. Cannon. Thank you. And if any of the panelists have 
other things you would like to make part of the record, we'll 
leave the record open for 5 days.
    So I ask unanimous consent that the Members of the panel--
that we limit questioning to 3 minutes for the panel. Hearing 
no objection, so ordered.
    Mr. Watt. That is per Member?
    Mr. Cannon. That is per Member, yes. Pardon me. Hearing no 
objection, but with that clarification, so ordered. And we'll 
keep the legislative record open for 5 days for questions. 
Without objection, so ordered.
    Thank you, and, Mr. Watt, you are recognized for 5 minutes.
    Mr. Watt. For 3 minutes--3 minutes, I presume. Thank you, 
sir.
    Since we're going on to the markup of H.R. 2840 and all of 
the witnesses heard my opening comments, I guess the most 
appropriate question I could ask in my short period of time is 
to Ms. Cooney and Ms. Horvath, since you all are here 
representing the Administration, or at least your respective 
Departments.
    Do you have a clue whether the Administration really 
supports and wants this bill? Because they haven't done 
anything to try to get it passed that I'm aware of on the 
Senate side, and we're engaging in a futile gesture here 
passing it out of here without the Administration injecting 
itself and saying it wants it.
    So does either of you know whether the Administration 
really wants this bill?
    Ms. Cooney. Mr. Watt, I'd be happy to answer. I don't know 
of a formal position that the Administration has taken on this 
bill. I'm not aware of one. I think in our last appearance I 
did mention that under section 222 we have very similar 
requirements at DHS to do PIAs on rulemakings, and we've been 
able to tackle that effort and can improve on it as we----
    Mr. Watt. But this is a systemwide, governmentwide bill, 
not a DHS bill. So I guess the question I'm asking is: Is the 
Administration committed to having this done systemwide, or are 
they not? If you don't know, I mean, just say you don't know.
    Ms. Cooney. I know of no formal position on it.
    Mr. Watt. Okay. I assume you don't know either, Ms. Koontz. 
You're not here--you're kind of in a different position with 
respect to the Administration. I understand that. Have you 
heard anything through the grapevine about whether the 
Administration wants it, Professor Katzen?
    Ms. Katzen. No.
    Mr. Watt. Okay. All right. I just keep pointing out that, 
you know, we've marked this bill up several times. It's gone. 
The Chairman indicated it went out of the House. Without the 
Administration doing something to lift a finger to get it, it 
ain't going to happen. So we might be back here again next term 
of Congress doing the same thing.
    I yield back.
    Mr. Cannon. Thank you.
    I think Mr. Franks--the gentleman is recognized for 3 
minutes.
    Mr. Franks. Mr. Chairman, I have no questions at this time.
    Mr. Cannon. Thank you, Mr. Franks. We appreciate that 
candor and directness, and I think--the gentleman from 
Massachusetts, Mr. Delahunt, is recognized for 3 minutes.
    Mr. Delahunt. Yes, thank you, Mr. Chairman. I'm going to 
make an effort to answer Mr. Watt's question. I think it's 
clear to me that the Administration--this is not a priority, I 
think it's fair to say, for the Administration. Otherwise, this 
bill would have been enacted into law last year. And I think 
it's time, particularly given the context of recent revelations 
concerning the NSA in particular that the Administration weigh 
in in a very significant way. If this bill is to pass, the 
Administration has to make it a priority. And I don't think any 
of us--and I think I speak for all of us on this panel right 
now--have not seen evidence of the Administration making it the 
kind of priority that I think it deserves.
    As my colleagues would remember, myself and Mr. Berman had 
an amendment to the PATRIOT Act involving data mining, and 
there was great resistance from the Department of Justice 
regarding that particular amendment, which I believed to be 
somewhat innocuous. Well, now I understand better, after 
reading the USA Today and other revelations that occurred prior 
to that why there would be such resistance. This is simply an 
opportunity for the American people to find out what their 
Government was doing.
    I have to agree with you, Professor Katzen. You know, when 
there's a lack of privacy afforded the individual citizen, 
we're on our way to eroding democracy and living I a 
totalitarian society. It's absolutely essential that this bill 
becomes a priority.
    Mr. Cannon. Would the gentleman yield?
    Mr. Delahunt. I yield.
    Mr. Cannon. Because I agree with the gentleman. Let me just 
point out that it is our obligation as the Legislature to set 
the limits and set the priorities here, and we have to do that 
as Republicans and Democrats and as the House and the Senate. 
That's sometimes hard. This Administration--no Administration 
is going to focus on these issues like we do because our 
perspective is different, and so I pledge to the gentleman that 
we will----
    Mr. Delahunt. I appreciate that, and I would even request--
the flip side, Mr. Chairman, is the lack of transparency, 
secrecy, if you will, that I would suggest has been an earmark 
of this Administration. We've had the National Archivist, Mr. 
Leonard, complain about the ubiquitous classification of public 
documents that is going on. And I would hope that you would 
consider having a hearing into that particular issue. I think 
that is something that is warranted, particularly given----
    Mr. Cannon. I'd be happy to speak with the gentleman, whose 
time has expired.
    May I ask unanimous consent that we not continue with 
questions, since we just had a vote called, and that we move 
over to the markup of this bill? Thank you.
    [Whereupon, at 2:48 p.m., the Subcommittee proceeded to 
other business.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Response to Post-Hearing Questions from Maureen Cooney, Acting Chief 
 Privacy Officer, U.S. Department of Homeland Security, Washington, DC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Response to Post-Hearing Questions from Sally Katzen, Professor, George 
               Mason University Law School, Arlington, VA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Response to Post-Hearing Questions from Linda D. Koontz, Director, 
 Information Management Issues, U.S. Government Accountability Office, 
                             Washington, DC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
